                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: I07070025                                                                     Page 1 of 1



         The Office of Investigation (01) initiated an investigation based upon an audit referred by the
         Office of Audits (OA). The audit found that a grantee1claimed inaccurate costs for its award
         with the National Science Foundation. The OA has given the grantee the opportunity to respond
         to audit findings. The 0 1 will close this investigation pending the resolution of the grantee's
         response to the audit. Accordingly, this case is closed.




ISF OIG Form 2 (1 1/02)
